                                                      NA TIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

      ,
Case Number: A09060047                                                                           Pagel of 1
      !



                 We received an allegation from'a program director' that a student2 committed intelt'ectual
         theft in her application for a fellowship. The program director indicated that she was concerned
       I because the student's research topic was similar to the program director's current research3•
                 An independent expert4 compared the program directo~'s research to the student's fellowship
       . application, and determined that, while the topics were very similar, the student approached it in a
         slightly different marmer. The independent expert determined that there was no evidence of
       , intellectual theft. Based on the independent expert's decision, we determined that there is
         insufficient evidence to substantiate the allegation.

          i       In addition, there was a concern that the program director had a conflict of interests, but she
       ! entered the conflict into NSF's electronic jacket system, thereby resolving this issue.

                  Accordingly, this case is closed.




NSF OIG Form 2 ('"02)
